No. 19-417
IN THE

Supreme Court of the United States

d

EMW WOMEN ’S SURGICAL CENTER , P.S.C., ON BEHALF OF
ITSELF, ITS STAFF, AND ITS PATIENTS ; ERNEST MARSHALL , M.D.,
ON BEHALF OF HIMSELF AND HIS PATIENTS ; ASHLEE BERGIN , M.D.,
ON BEHALF OF HERSELF AND HER PATIENTS ; TANYA FRANKLIN ,
M.D., ON BEHALF OF HERSELF AND HER PATIENTS ,
Petitioners,
—v.—

OF

ADAM MEIER , IN HIS OFFICIAL CAPACITY AS SECRETARY
THE KENTUCKY CABINET FOR HEALTH AND FAMILY SERVICES ,
Respondent.
ON PETITION FOR A WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE SIXTH CIRCUIT

REPLY BRIEF FOR PETITIONERS
Jeffrey L. Fisher
O’MELVENY & MYERS LLP
2765 Sand Hill Road
Menlo Park, CA 94025
Heather Gatnarek
ACLU OF KENTUCKY
FOUNDATION , INC .
325 W. Main Street, Suite 2210
Louisville, KY 40202
Amy D. Cubbage
ACLU OF KENTUCKY
FOUNDATION , INC .
734 W. Main Street, Suite 200
Louisville, KY 40202

Alexa Kolbi-Molinas
Counsel of Record
Andrew D. Beck
Meagan Burrows
Jennifer Dalven
AMERICAN CIVIL LIBERTIES
UNION FOUNDATION
125 Broad Street
New York, NY 10004
(212) 549-2500
akolbi-molinas@aclu.org
David D. Cole
AMERICAN CIVIL LIBERTIES
UNION FOUNDATION
915 15th Street, NW
Washington, DC 20005

(Counsel continued on inside cover)

Anton Metlitsky
Leah Godesky
Jennifer B. Sokoler
Kendall Turner
O’MELVENY & MYERS LLP
7 Times Square
New York, NY 10036

TABLE OF CONTENTS
PAGE

TABLE OF AUTHORITIES . . . . . . . . . . . . . . . .

ii

REPLY BRIEF FOR PETITIONERS . . . . . . .

1

A. The Circuits Are Split Over The
Question Presented . . . . . . . . . . . . . . . . . .

2

B. The Question Presented Is Important
And Recurring, And This Petition
Provides An Ideal Vehicle Through
Which To Resolve It . . . . . . . . . . . . . . . . .

5

C. The Decision Below Is Incorrect . . . . .

6

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . .

13

ii
TABLE OF AUTHORITIES
PAGE(S)

Cases
Hurley v. Irish-Am. Gay, Lesbian & Bisexual
Grp. of Bos.,
515 U.S. 557 (1995) . . . . . . . . . . . . . . . . . . . . . . . . . 12
Nat’l Ass’n for Advancement of Colored People
v. Button,
371 U.S. 415 (1963) . . . . . . . . . . . . . . . . . . . . . . . . . . 8
Nat’l Institute of Family & Life Advocates
v. Becerra,
138 S. Ct. 2361 (2018) . . . . . . . . . . . . . . . . . passim
Planned Parenthood of Se. Pa. v. Casey,
505 U.S. 833 (1992) . . . . . . . . . . . . . . . . . . . . passim
Riley v. Nat’l Fed’n of the Blind of N.C., Inc.,
487 U.S. 781 (1988) . . . . . . . . . . . . . . . . . . . . . . . . . 12
Stuart v. Camnitz,
774 F.3d 238 (4th Cir. 2014) . . . . . . . . . . . passim
Tex. Med. Providers Performing Abortion
Servs. v. Lakey,
667 F.3d 570 (5th Cir. 2012) . . . . . . . . . . . . . . 2, 4
United States v. Alvarez,
567 U.S. 709 (2012) . . . . . . . . . . . . . . . . . . . . . . . . . . 8
Wollschlaeger v. Governor of Fla.,
848 F.3d 1293 (11th Cir. 2017) . . . . . . . . . . . . . . 12

iii
PAGE(S)

Statutes
Ky. Rev. Stat. § 304.40-320 . . . . . . . . . . . . . . . . . . . . . 7
Constitutional Provisions
The First Amendment . . . . . . . . . . . . . . . . . . . . passim
The Fourteenth Amendment . . . . . . . . . . . . . . . . . . . 10
The Second Amendment . . . . . . . . . . . . . . . . . . . . . . . 11

REPLY BRIEF FOR PETITIONERS
This petition asks whether compulsory displayand-describe ultrasound laws such as H.B. 2 violate
the First Amendment rights of doctors by requiring
them to convey specific content to unwilling patients
against their medical judgment. Respondent’s opposition concedes that the answer to this question turns
on whether such laws—which unquestionably compel
content-based speech—fall within an exception to
compelled-speech doctrine, recognized in Planned
Parenthood of Southeastern Pennsylvania v. Casey,
505 U.S. 833 (1992), for laws requiring “informed consent.” For the reasons explained in the petition and
further below, H.B. 2 and other compulsory displayand-describe laws are invalid precisely because they
are not informed-consent laws, but rather coercive
speech mandates untethered from any plausible understanding of informed consent.
Respondent disputes that the circuits are split on
this question. But he does not dispute that the Fourth
Circuit invalidated a law materially identical to H.B.
2, or that the court below expressly rejected the
Fourth Circuit’s analysis in favor of earlier Fifth Circuit precedent. Rather, respondent’s entire opposition rests on its contention that National Institute of
Family & Life Advocates v. Becerra, (“NIFLA”), 138 S.
Ct. 2361 (2018), resolved the circuit conflict. It did not.
NIFLA did not consider, let alone resolve, the
question presented here. As the decision below makes
clear, NIFLA confirmed that the answer to the question presented turns on whether H.B. 2 and similar
laws are properly understood as regulating the medical practice of “informed consent,” not speech, and are

2
therefore shielded from First Amendment scrutiny.
That is the important question on which the courts of
appeals have split, and only this Court can resolve the
conflict.
The petition should be granted.
A. The Circuits Are Split Over The Question
Presented
1. Three different courts of appeals have considered First Amendment challenges to ultrasound display-and-describe statutes. Pet. 12-20. No one disputes that these statutes require physicians to speak
words and display images that they would otherwise
not speak or display—precisely what the First
Amendment normally precludes. Pet. 5-8. Moreover,
each appellate court to have considered such First
Amendment challenges has recognized that, as Casey
explained, some laws that implicate physician
speech—in particular, informed-consent provisions—
are constitutional because they principally regulate
the practice of medicine and therefore only incidentally burden speech. See App. 11a-12a; Stuart v.
Camnitz, 774 F.3d 238, 247 (4th Cir. 2014); Tex. Med.
Providers Performing Abortion Servs. v. Lakey, 667
F.3d 570, 574-75 (5th Cir. 2012).
These courts of appeals fundamentally disagree,
however, about the scope of Casey’s ruling and the
proper understanding of “informed consent.” The
Fifth and Sixth Circuits read Casey to authorize all
laws that compel physician speech so long as the mandated-speech is “truthful, non-misleading, and relevant.” App. 21a-22a (quoting Lakey, 667 F.3d at 576).
The Fourth Circuit, by contrast, expressly disagrees,

3
holding a compulsory display-and-describe law materially identical to H.B. 2 invalid under the First
Amendment because it compelled speech far beyond
what informed-consent principles have traditionally
allowed. See Stuart, 774 F.3d at 248-49, 251-55.
2. Respondent’s rejoinder is that this Court resolved this conflict in NIFLA. It did not.
As respondent acknowledges, the Court in NIFLA
considered whether there is a “special doctrine governing the speech of professionals.” BIO 13 (emphasis
omitted). Specifically, NIFLA rejected any “professional speech” category, concluding that “[s]peech is
not unprotected merely because it is uttered by ‘professionals.’” 138 S. Ct. at 2372. Respondent contends
that Stuart is no longer good law because the Fourth
Circuit did believe that there was a special category
of “professional speech,” and that such speech requires less protection than non-professional speech.
BIO 13. Respondent’s mistake is obvious: While Stuart treated North Carolina’s compulsory display-anddescribe law as part of a category of less-protected
“professional speech,” it concluded even under that
more lenient standard that North Carolina’s law violated the First Amendment. 774 F.3d at 247-48. NIFLA’s rejection of lesser scrutiny for “professional
speech” only strengthens Stuart’s conclusion that the
compulsory display-and-describe law is invalid, for if
the law was invalid under the Fourth Circuit’s “sliding scale” approach to professional speech, then it is a
fortiori invalid under the across-the-board heightened
scrutiny NIFLA requires.
NIFLA recognized that physicians’ speech may be
subject to lesser First Amendment scrutiny if it falls

4
into one of two categories traditionally subject to state
regulation: (i) state-mandated disclosures of factual,
noncontroversial information in “commercial speech”
and, as is relevant here, (ii) regulations of “professional conduct, even though that conduct incidentally
involves speech.” 138 S. Ct. at 2372 (citing Casey, 505
U.S. at 884). To illustrate the second category, NIFLA pointed to Casey’s rejection of “a free-speech
challenge to [an] informed-consent requirement,” id.
at 2373, noting that “the requirement that a doctor
obtain informed consent to perform an operation is
firmly entrenched in American tort law,” id. (quotations omitted).
Otherwise said, NIFLA did not answer the relevant question here, but confirmed that Casey’s First
Amendment analysis continues to govern. Before NIFLA, the Fifth Circuit construed Casey to authorize
compulsory display-and-describe laws because they
mandate “truthful, nonmisleading, and relevant disclosures.” Lakey, 667 F.3d at 576. The Fourth Circuit
expressly disagreed with that holding precisely because it believed compulsory display-and-describe
laws “resemble neither traditional informed consent
nor the variation found in the Pennsylvania statute
at issue in Casey.” Stuart, 774 F.3d at 251. After NIFLA, the decision below agreed with the Fifth Circuit’s reading of Casey and explicitly disagreed with
the Fourth’s. App. 21a-26a.
That was certainly the Sixth Circuit’s understanding. Its decision explained that NIFLA “explicitly reaffirmed that heightened scrutiny is not appropriate
under the First Amendment for informed-consent requirements of the nature upheld in Casey.” App. 13a

5
(emphasis added). Thus, it explained, “[t]his First
Amendment appeal . . . turns on whether H.B. 2
shares the same material attributes as the informedconsent statute in Casey.” App. 14a. That is the question over which the Fourth and Fifth Circuits have
split. The decision below extends that conflict.
In sum, NIFLA confirmed Casey’s understanding
that informed-consent provisions are not subject to
heightened First Amendment scrutiny—it did not resolve whether compulsory display-and-describe laws
fall within that exception, which is the question here.
Indeed, respondent ultimately recognizes the same
point in Part III of his opposition. There, he (correctly) argues that “NIFLA held that a disclosure requirement is a valid informed-consent law if it possesses the same material attributes as the statute in
Casey.” BIO 20. Although respondent is wrong on the
merits—laws like H.B. 2 are fundamentally different
from the statute in Casey, see infra Section C—this
concession is correct. The relevant question here is
the scope of Casey’s exception to the ordinary operation of compelled-speech law. And that is the question
over which the courts of appeals have disagreed, both
before and after NIFLA.
B. The Question Presented Is Important And
Recurring, And This Petition Provides An
Ideal Vehicle Through Which To Resolve
It
Respondent “agrees that the question presented is
an important one.” BIO 17. He also does not dispute
that the petition provides an ideal vehicle to resolve
that question. Pet. 20-22.

6
Respondent does argue that this is not a recurring
issue because NIFLA has resolved it. But as set forth
above, the circuit conflict over the question presented
persists, and the number of states that have enacted
similar laws—not to mention courts of appeals that
have resolved their constitutionality, see supra Section A—demonstrate that the First Amendment issue
here is not only important but recurring, warranting
this Court’s review. Id.
C. The Decision Below Is Incorrect
1. Respondent concedes that the central question
in this case is whether H.B. 2 is an informed-consent
law like that upheld in Casey—i.e., a law that regulates the practice of medicine with only an incidental
effect on speech. BIO 19. And like the court below,
respondent asserts that H.B. 2 is an informed-consent
provision just like the law in Casey. Id. at 20-21; see
also App. 12a-13a. It is not.
a. A law like H.B. 2 that requires physicians to
keep speaking the government’s message when the
patient is not listening cannot possibly be an informed-consent requirement because the speech is, according to the statute itself, unnecessary to informed
consent. Cf. NIFLA, 138 S. Ct. at 2373 (state-mandated speech “does not facilitate informed consent”
where it “provides no information about the risks or
benefits of [a medical procedure]”). H.B. 2 is a speech
mandate entirely unconnected from informed consent.
Respondent contends that “[i]t is always true that
patients can look away and ignore informed-consent
disclosures.” BIO 24; see also id. (“[S]ome individuals
simply want their doctors to make decisions for them

7
and will reject all information”). That is wrong and
irrelevant.
Respondent is wrong because it is well-settled that
for consent to be valid, a patient must have a baseline
understanding of the risks, benefits, and alternatives
to a procedure. See Biomedical Ethicists Ruth R.
Faden, Ph.D, M.P.H., et al., Amici Br. 10-13 [“Ethicists Br.”]; see also Ky. Rev. Stat. § 304.40-320 (defining informed consent under Kentucky law). While it
is conceivable that some patients might refuse this information, few (if any) physicians would risk performing a procedure on a patient under those circumstances. See, e.g., NIFLA, 138 S. Ct. at 2373 (“[A] surgeon who performs an operation without his patient’s
consent commits an assault”) (internal citations omitted).
More important, whether patients can look away is
irrelevant. What matters is that the speech H.B. 2
compels cannot be essential to informed consent because, under the statute, every patient can give informed consent without seeing or hearing it. App. 4a.1

This is not to suggest that the information mandated by
H.B. 2 is not relevant to some patients, in which case it is consistent with informed consent to provide it. See Ethicists Br. 1415, 18. For example, the Commonwealth points to affidavits from
four women who regret their decision to have an abortion and
aver that “being shown an ultrasound image of their fetus and
receiving a description of that image would have been helpful to
them in determining whether to have an abortion.” BIO 4. As
the district court recognized, however, none of these women were
offered the opportunity to view their ultrasounds prior to their
abortion. App. 117a. It is undisputed that petitioners offer that
opportunity to all their patients, and do not object to providing
1

8
The fact that the statute requires every physician to
speak these words even though the statute itself recognizes they are unnecessary for informed consent
confirms that H.B. 2 compels speech as speech, rather
than as incidental to the regulation of medical practice.
b. Indeed, H.B. 2’s requirements fall far outside
the bounds of traditional informed-consent disclosures. See, e.g., Stuart, 774 F.3d at 253 (materially
identical law “antithetical to the very communication
that lies at the heart of the informed consent process”);
Ethicists Br. 2-20. Informed consent is a legal and ethical concept that is “deeply embedded in American culture, in our religious traditions and in Western moral
philosophy.” Ethicists Br. 6. That is crucial because
this Court has consistently held that exceptions to
First Amendment scrutiny, including the exception for
regulations of professional conduct that incidentally
burden speech, must be narrowly circumscribed and
consistent with tradition and history. See, e.g. Nat’l
Ass’n for Advancement of Colored People v. Button, 371
U.S. 415, 439 (1963) (“[A] State may not under the
guise of prohibiting professional misconduct ignore
[First Amendment] rights”); NIFLA, 138 S. Ct. at 2373
(professional-conduct exceptions to First Amendment
are rooted in “[l]ongstanding torts for professional
malpractice,” which are “firmly entrenched in American tort law”) (quotations omitted); cf. United States v.
Alvarez, 567 U.S. 709, 722 (2012) (speech exempted
from protection only with “persuasive evidence that a
the information to patients who seek it—only to having to inflict
it on those who do not want it. Pet. 4-5.

9
novel restriction on content is part of a long (if heretofore unrecognized) tradition of proscription”) (internal citations and quotations omitted).
What H.B. 2 requires—that a doctor keep speaking
to a patient who has demonstrated that she does not
want to hear and is not listening—is unrecognizable
to the informed-consent tradition. Pet. 4-8, 14-17, 2728; see also Ethicists Br. 4, 14-20. There is no tradition
of informed consent that permits, let alone requires, a
physician to continue speaking over the express objections of her patient. Ethicists Br. 15-18. Indeed, such
a mandate would undermine the very patient autonomy that informed consent is designed to effectuate.
Id. Thus, H.B. 2 is not informed consent (among other
reasons) because it requires physicians to continue
speaking even as their half-naked patients don earplugs and a blindfold to avoid them.
The point is not—as respondent caricatures it—
that the bounds of the First Amendment are set by
professional medical organizations. Rather, current
ethical guidelines reflect the informed-consent tradition. Id. at 6. And those “longstanding principles . . .
dictate that if a patient does not wish to receive certain information, the physician is to stop speaking.”
Id. at 15.
c. Unlike H.B. 2, the informed-consent provisions
upheld in Casey were entirely consonant with traditional informed-consent principles. See Pet. 27-28; see
also Ethicists Br. 14-15. The Pennsylvania law required physicians to verbally disclose to every patient
the core elements of informed consent discussed
above, see 505 U.S. at 881, which Kentucky law also
requires wholly apart from H.B. 2, see Pet. 4. But the

10
Pennsylvania law merely required physicians to offer
state-published materials that, inter alia, displayed
and described the fetus. 505 U.S. at 881. What is
more, that law expressly allowed physicians to refrain
even from offering their patients the state-created
pamphlets when, in the physician’s judgment, the offer itself would harm the patient. Id. at 883-84. Thus,
the Pennsylvania law did not require physicians to
pass on the state’s message through their own speech,
including when the patient expressed a desire not to
listen, or where it would cause the patient harm. H.B.
2 does just that, and for that reason compels physician
speech untethered from, and indeed contrary to, obtaining informed consent. No decision of this Court
authorizes that unprecedented result. See Pet. 23-24,
27.
2. Respondent, like the court below and the Fifth
Circuit, maintains that Casey shields from First
Amendment scrutiny any law that compels speech
that is truthful, non-misleading, and relevant to a
medical decision. BIO 20-21; see also App. 12a-13a.
That contention affirmatively misreads Casey and is
contrary to foundational First Amendment principles.
The invocation of the “truthful, nonmisleading,
and relevant” standard is a categorical mistake. It
conflates Casey’s analysis of abortion-patients’ Fourteenth Amendment claims with physicians’ separate
First Amendment claims. Casey applied the “truthful
and nonmisleading” test on which respondent relies to
the patients’ Fourteenth Amendment challenge because that test provided “the appropriate means of
reconciling the State’s interest with the woman’s con-

11
stitutionally protected liberty.” 505 U.S. at 876 (emphasis added); see also id. at 883 (truthful and nonmisleading “requirement cannot be considered a substantial obstacle to obtaining an abortion”).
But “[t]he fact that a regulation does not impose
an undue burden on a woman under the due process
clause does not answer the question of whether it imposes an impermissible burden on the physician under the First Amendment.” Stuart, 774 F.3d at 249;
see also App. 56a (“[I]magine if a state passed a law
requiring all gun owners to turn in their guns for just
compensation, and this Court upheld the law under
the Second Amendment, but relied only on facts from
Takings Clause jurisprudence. The outcome would be
flawed because the issues are distinct.”). And in addressing the physicians’ separate First Amendment
claims, the Casey plurality did not even mention, let
alone apply, the “truthful and nonmisleading” test.
Instead, Casey simply concluded that the required disclosures were consistent with “the practice of medicine,” so there was “no constitutional infirmity in the
requirement that the physician provide the information mandated by the State here.” 505 U.S. at 884
(emphasis added). That conclusion is fully supported
by the traditional scope of informed consent, and the
fact that “the requirement that a doctor obtain informed consent to perform an operation is firmly entrenched in American tort law.” NIFLA, 138 S. Ct. at
2373 (quotation omitted). There is no similar tradition
of exempting speech from First Amendment scrutiny
just because it is truthful and relevant to the listener.

12
To the contrary, history and precedent squarely
precludes that approach. Indeed, respondent’s argument that compelled truthful speech is presumptively
outside the First Amendment’s scope cannot be
squared with this Court’s established understanding
that conscripting private speakers to deliver factual
information is as constitutionally suspect as conscripting them to deliver an ideological message—even if
those facts are arguably relevant to the listener. See
Riley v. Nat’l Fed’n of the Blind of N.C., Inc., 487 U.S.
781, 798 (1988); see also Hurley v. Irish-Am. Gay, Lesbian & Bisexual Grp. of Bos., 515 U.S. 557, 573 (1995);
NIFLA, 138 S. Ct. at 2371-75. The Court has likewise
recognized the importance of protecting physician-patient speech, in particular, from government interference. See, e.g., NIFLA, 138 S. Ct. at 2374-75; see also
Wollschlaeger v. Governor of Fla., 848 F.3d 1293, 1328
(11th Cir. 2017) (Pryor, J. concurring) (“If anything,
the doctor-patient relationship provides more justification for free speech, not less.”). A First Amendment
carve-out for virtually all factual speech relevant to a
medical procedure would swallow this rule, since such
speech is at the heart of the conversations that take
place in a doctor’s office. Respondent admits that its
rule would allow legislatures to control such core doctor-patient speech completely. See BIO 17-18.
Respondent’s reading of Casey as shielding from
First Amendment scrutiny any mandates involving
truthful and relevant speech implausibly suggests
that Casey silently rejected all this established precedent. But this Court has never categorically exempted
compelled truthful speech from First Amendment pro-

13
tection—in Casey or any other case. The court of appeals’ contrary conclusion is wrong, and should be reversed.
CONCLUSION
The petition for a writ of certiorari should be
granted.
Respectfully submitted,
Jeffrey L. Fisher
O’Melveny & Myers LLP
2765 Sand Hill Road
Menlo Park, CA 94025
Anton Metlitsky
Leah Godesky
Jennifer B. Sokoler
Kendall Turner
O’Melveny & Myers LLP
7 Times Square
New York, NY 10036
Heather Gatnarek
ACLU of Kentucky
Foundation, Inc.
325 W. Main Street,
Suite 2210
Louisville, KY 40202
Amy D. Cubbage
ACLU of Kentucky
Foundation, Inc.
734 W. Main Street,
Suite 200
Louisville, KY 40202

Dated: November 13, 2019

Alexa Kolbi-Molinas
Counsel of Record
Andrew D. Beck
Meagan Burrows
Jennifer Dalven
American Civil Liberties
Union Foundation
125 Broad Street
New York, NY 10004
(212) 549-2500
akolbi-molinas@aclu.org
David D. Cole
American Civil Liberties
Union Foundation
915 15th Street, NW
Washington, DC 20005

